HHS/OIG, Audit -"Review Of Cost Sharing At Columbia University For The Period July
1, 2003 To June 30, 2004,"(A-02-05-02002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review Of Cost Sharing At Columbia University For The Period July 1, 2003 To June
30, 2004," (A-02-05-02002)
March 3, 2006
Complete
Text of Report is available in PDF format (129 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report states that Columbia University had procedures in place to document mandatory
cost sharing; removed salary above the cap when submitting grant application and claims for
Federal reimbursement for NIH projects and properly included salary above the cap in the
calculation of the Facilities and Administrative cost rate.  The report contained no
recommendations.